IN THE
SUPREME COURT OF THE UNITED STATES
No.
NATALIE MARIE KEEPERS,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW, the Petitioner, NATALIE MARIE KEEPERS, by counsel,
by counsel, pursuant to Rule 39.1 of the Rules of the Supreme Court of the
United States, and moves for leave to file the enclosed Petition for a Writ of
Certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner is financially unable to pay the filing fees and other costs associated
with filing a normal Petition for a Writ of Certiorari. Leave to proceed in forma
pauperis has not been previously granted by any court.

By:________________________
Counsel

David B. Hargett
Counsel of Record
Virginia State Bar No. 39953
HARGETT LAW, PLC
11545 Nuckols Road, Suite C
Glen Allen, VA 23059
Office: (804) 788-7111
Facsimile: (804) 915-6301
email: dbh@hargettlaw.com

